IN THE COURT OF APPEALS OF THE STATE OF MISSISSIPPI
NO. 2019-CP-00766-COA
C.D. PICKLE JR. A/K/A CLANTON D. PICKLE
JR. A/K/A C.D. PICKLE

APPELLANT

v.
STATE OF MISSISSIPPI

APPELLEE

DATE OF JUDGMENT:
04/18/2019
TRIAL JUDGE:
HON. RICHARD A. SMITH
COURT FROM WHICH APPEALED: LEFLORE COUNTY CIRCUIT COURT
ATTORNEY FOR APPELLANT:
C.D. PICKLE JR. (PRO SE)
ATTORNEY FOR APPELLEE:
OFFICE OF THE ATTORNEY GENERAL
BY: BILLY L. GORE
NATURE OF THE CASE:
CIVIL - POST-CONVICTION RELIEF
DISPOSITION:
AFFIRMED - 05/05/2020
MOTION FOR REHEARING FILED:
MANDATE ISSUED:
BEFORE CARLTON, P.J., TINDELL AND McDONALD, JJ.
TINDELL, J., FOR THE COURT:
C.D. Pickle Jr. appeals from the Leflore County Circuit Court's judgment summarily
dismissing his March 22, 2019 motion for post-conviction collateral relief (PCR). Finding
no error, we affirm.
FACTS
"The procedural history associated with this case is quite extensive, as Pickle has filed
numerous motions before the circuit court[.]" Pickle v. State, 203 So. 3d 753, 755 (114)
(Miss. Ct. App. 2016). Just last year, this Court summarized the relevant procedural history
as follows:

In 1975, a Holmes County grand jury indicted Pickle for the capital murder of
Mary Elizabeth Harthcock. The indictment charged that, on November 26,
1974, Pickle raped Harthcock and then killed her. A jury subsequently
convicted Pickle and sentenced him to death. The Mississippi Supreme Court
reversed Pickle's conviction in 1977 and remanded the case for a new trial.
Pickle v. State, 345 So. 2d 623, 624 (Miss. 1977). His second trial was held
in the Leflore County Circuit Court in 1978, where he was convicted again and
sentenced to life in the custody of the MDOC. The record reflects that Pickle
failed to perfect a direct appeal from that conviction.
At some point between March or April 1978 and December 1981, Pickle
petitioned the circuit court for permission to file an out-of-time appeal from
his conviction, which the circuit court denied. On review, the Mississippi
Supreme Court ordered an evidentiary hearing on the issue of whether Pickle
had knowingly and intelligently waived his right to appeal. After the
evidentiary hearing, the circuit court determined that Pickle had properly
waived his right to appeal and, thus, again denied Pickle's request for an
out-of-time appeal. The supreme court affirmed the denial in March 1982.
Pickle v. State, 791 So. 2d 204, 205 (¶4) (Miss. 2001).
In September 1997, Pickle filed a PCR motion again seeking an out-of-time
appeal from his 1978 conviction and sentence. The circuit court denied the
motion, explaining that it had already determined Pickle had knowingly and
intelligently waived his right to appeal and that Pickle had raised no other
issues that would entitle him to an out-of-time appeal. On appeal, the supreme
court affirmed the circuit court's decision and held that Pickle was collaterally
estopped from seeking an out-of-time appeal because the issue of his
entitlement to an out-of-time appeal had been adjudicated sixteen years before.
In June 2004, Pickle filed another PCR motion in the circuit court, arguing that
in his 1978 trial, the judge erroneously instructed the jury, and that his counsel
was ineffective. Pickle further argued that he was innocent. The circuit court
dismissed Pickle's PCR motion as time-barred and as successive-writ barred.
The circuit court further held that Pickle was collaterally estopped from filing
the PCR motion since the issue of his entitlement to an out-of-time appeal had
already been determined. This Court affirmed the circuit court's decision in
May 2006. Pickle v. State, 942 So. 2d 243, 247 (1114) (Miss. Ct. App. 2006).
Pickle then petitioned the supreme court for a writ of certiorari, which the
court denied on November 20, 2006.
In June 2009, Pickle filed another PCR motion. On August 19, 2009, the
circuit court denied and summarily dismissed all motions filed by Pickle. The
circuit court barred Pickle from bringing any other action regarding his
2

incarceration, either in federal or state court, absent immediate danger or
physical injury. Pickle appealed. On appeal, this Court affirmed the circuit
court's dismissal of Pickle's PCR motion and determination that the PCR
motion was frivolous. Pickle v. State, 64 So. 3d 1009, 1012 (¶11) (Miss. Ct.
App. 2010).
Significantly, the prior dismissals of Pickle's petitions, as set forth above,
relied on the premise that no other issues would entitle him to relief under
Mississippi Code Annotated section 99-39-5. Since that time, section 99-39-5
was amended to establish relief by providing an exception for DNA testing in
cases where such testing and technology were not available at the time of trial.
On September 15, 2011, Pickle filed another PCR motion wherein he claimed
insufficient evidence existed to support his capital-murder conviction, and for
the first time, requested DNA testing of the biological evidence collected
during the murder investigation. On October 11, 2011, the circuit court
summarily dismissed Pickle's motion as time-barred and successive-writ
barred without holding an evidentiary hearing.
Pickle appealed the dismissal of his PCR motion, arguing that his PCR motion
was excepted from the successive-writ and time-bars. Pickle also argued that
the circuit court erred in denying his request for DNA testing, claiming that an
exception to the statutory bar existed under section 99-39-5(2). We remanded
this case to the circuit court for an evidentiary hearing to determine whether
a basis existed for the exception to the time-bar to grant relief pursuant to
section 99-39-5 (2)(a)(ii).
Pickle v. State, No. 2018-CP-00774-COA, 2019 WL 4439413, at *1-2 (¶2) (Miss. Ct. App.
Sept. 17, 2019) (quoting Pickle, 203 So. 3d at 755-56 (¶4)); cert. denied, 290 So. 3d 753
(Miss. 2020). "On remand, the circuit court held an evidentiary hearing, specifically
addressing DNA testing; however, the court rejected Pickle's arguments and dismissed his
PCR motion . . ." Pickle, 203 So. 3d at 756 (¶4). In November 2016, this Court affirmed
the circuit court's judgment. Id. at 759 (¶17).
¶3.

Pickle then filed his next PCR motion on March 12, 2018, in which he "claimed on

due[-]process and equal[-]protection grounds that the court should have considered

3

alternative sentencing under the Youth Court Act and that his counsel was ineffective for
failing to request that the court do so." Pickle, 2019 WL 4439413, at *2 (9). After the
circuit court dismissed Pickle's motion as procedurally barred, Pickle appealed. Id. This
Court, in September 2019, affirmed the circuit court's dismissal. Id. at *3 (¶8).
On March 22, 2019, Pickle filed his current PCR motion in which he claimed his
indictment was defective. The circuit court dismissed Pickle's PCR motion as successivewrit barred, time-barred, and frivolous. Aggrieved, Pickle appeals.
STANDARD OF REVIEW
"When reviewing a circuit court's dismissal of a PCR motion, this Court will only
reverse a circuit court's factual findings if the findings are determined to be clearly
erroneous." Pickle, 203 So. 3d at 756 (ITS). We review issues of law de novo. Id. "Whether
an indictment is fatally defective is a question of law that we review de novo." Jenkins v.
State, 283 So. 3d 217, 219 (¶5) (Miss. Ct. App. 2019) (quoting Bryant v. State, 238 So. 3d
1213, 1216 (¶7) (Miss. Ct. App. 2018)).
DISCUSSION
Upon its enactment on April 17, 1984, the Mississippi Uniform Post-Conviction
Collateral Relief Act (UPCCRA) created a three-year period for movants to seek relief for
convictions that occurred prior to the UPCCRA. Truitt v. State, 878 So. 2d 244, 245 (¶3)
(Miss. Ct. App. 2004). In addition, the UPCCRA provides that the denial or dismissal of a
PCR motion bars any second or successive motion. Miss. Code Ann. § 99-39-23(6) (Rev.
2015). Pickle's current PCR motion is not his first and was filed over thirty years after the

4

time period for seeking relief had expired. As a result, his current PCR motion is clearly
procedurally barred.
On appeal, Pickle argues his indictment failed to charge an essential element of capital
murder. Specifically, Pickle asserts that his indictment failed to state that he committed the
crime "with or without" any design to effect death while he was engaged in the commission
of rape. Our caselaw holds that "[c]laims alleging [a] defective indictment are subject to the
UPCCRA's procedural bars." Hays v. State, 282 So. 3d 714, 719 (1114) (Miss. Ct. App.
2019). We recognize, however, that "if the indictment failed to allege an essential element
of the crime, [Pickle] would not be precluded from raising that issue now." Id. (quoting
Wilson v. State, 203 So. 3d 762, 765 (P) (Miss. Ct. App. 2016)). "[A]n indictment must
contain (1) the essential elements of the offense charged, (2) sufficient facts to fairly inform
the defendant of the charge against which he must defend, and (3) sufficient facts to enable
him to plead double jeopardy in the event of a future prosecution for the same offense."
Jenkins, 283 So. 3d at 220 (¶6) (quoting Bryant, 238 So. 3d at 1216 (¶8)). "[A]n indictment
is legally sufficient so long as from a fair reading of the indictment, taken as a whole, the
nature and cause of the charge against the accused are clear." Id. (citation and internal
quotation mark omitted).
Pickle's indictment stated that he
wilfully, feloniously[,] and ofhis malice aforethought, with the design to effect
the death of Mary Elizabeth Harthcock, a female human being, did then and
there kill and murder the said Mary Elizabeth Harthcock while he, the said
C. D. Pickle, Jr., was engaged in the commission of the crime of rape, in
violation of Section 97-3-19, subsection (2)(e), Mississippi Code of 1972 as
amended . . . .
5

In relevant part, the capital-murder statute in effect at the time of Pickle's indictment
provided the following:
The killing of a human being without the authority of law by any means or in
any manner shall be capital murder . .( [w]hen done with or without any
design to effect death, by any person engh-ged in the commission of the crime
of rap4burglary, kidnapping, arson[,] or robbery, or in any attempt to commit
such felonies . . . .
Miss. Code Ann. § 97-3-19 (Supp. 1974).
Pickle correctly points out that his indictment did not contain the words "or without"
when it charged that he acted "with the design to effect" Harthcock's death. Mississippi
precedent establishes, however, that "[g]enerally, if an indictment tracks the language of a
criminal statute, it is sufficient to inform the defendant of the charged crime." Hays, 282 So.
3d at 719 (¶15) (quoting Randall v. State, 148 So. 3d 686, 688-89 (1110) (Miss. Ct. App.
2014)). Further, "our supreme court has previously stated that naming the underlying felony
in the capital-murder indictment is sufficient to place the defendant on notice of the charges
against him, unless the underlying felony is burglary." Whetstone v. State, 109 So. 3d 616,
620 (¶12) (Miss. Ct. App. 2013).
Upon review, we find that Pickle's indictment not only named the underlying felony
but also sufficiently tracked the language of the capital-murder statute so that Pickle was
clearly informed of the nature and cause of the charge against him. Because Pickle's
defective-indictment claim otherwise fails to survive the UPCCRA' s procedural bars, we find
this argument lacks merit.
CONCLUSION

6

1112. Pickle's current PCR motion is successive-writ barred, time-barred, and lacks merit.
We therefore affirm the circuit court's judgment of dismissal.
1113.

AFFIRMED.

BARNES, C.J., CARLTON AND J. WILSON, P.JJ., GREENLEE,
WESTBROOKS, McDONALD, LAWRENCE, McCARTY AND C. WILSON, JJ.,
CONCUR.

7

05/P6/2019

•

(risA)ooz 9Ja

14:13LEFLORE CIRCUIT CLERK

0.0

IN THE CIRCUIT COURT

or LEFLORE COUNTY, MISSISSIPPI

FILED

C.D. PICKLE
VS.

r.uv.orywr

lAtO

MAY 06 2019

PETITIONER
CAUSE NO. 2019-0031-CICI
RESPONDENT

STATE OF MISSISSIPPI
OFTHE
OFFICE
COURT
SUPREME
COURT OF APPEALS

ORDER DISMISSING MOTION roR
POST CONVICTION COLLATERAL RELIEF
COMES NOW; before this Court, Petitioner's Motion for Post
Conviction Collateral Relief, and this Court having reviewed this
matter and being otherwise fully advised in the premises, does hereby
find, order and adjudge as follows:
A. FACT IDENTIFICATION:
"1. In 1978, Petitioner was convicted of the crime of Capital
Murder and was sentenced to a term of life in the custody of the
Mississippi Department of Corrections.
Since his conviction, Petitioner has filed numerous Motions
for Post Conviction Collateral Relief.
On or about March 22, 2019, Petitioner filed this current
motion, once again seeking post conviction relief.

A. LAW DECLARATION AND APPLICATION:
According to Section 99-39-23(6) of the Mississippi Code,
the denial of relief is "a bar to a second or successive motion."
There are exceptions to this bar, but Petitioner has failed
to allege any facts which would overcome his burden to show that his
'claim is not procedurally

barred.

Lockett v. State, 614 So.2d 888

(Miss. 1993).
Petitioner has already filed numerous Motions for Post-

EXI-1311

05/06'72019

•

(FAX)662 455 1278

14; 13 LEFLORE CIRCUIT CLERK

P.004/004

Conviction Collateral Relief and his Petitions were denied. As such,

Petitioner is now barred from again attempting to seek such relief.
C. CONcLuSION:
IT IS, THEREFORE, ORDERED AND ADJUDGED AS FOLLOWS:
A. Petitioner is procedurally barred from seeking the relief

requested.
B,

Petitioner is not entitled to the relief requested.

O. Pursuant to Miss. Code Ann. Section 99-39-11, this Court may
to dismiss a motion without a hearing if it plainly appears on the
face of such motion that the movant is not

entitled to relief.

D. As such, this Motion for Post-Conviction Relief is hereby
denied and this cause is hereby dismissed with prejudice as
frivolous.
SO ORDERED, this the If/day of April, 2019.

Richard A. Smith
Circuit Court Judge

I hereby certify that the foregoing is a trueitigl, OF
and correct copy of the on mai thereof -.S-• Fe"' Lep,k,,
4 "r •
the same appears of recor In my offs c`
el-a
eA
',,Nv.4).
Gen under my ha d and offici4
. ,„..,
AC:5":c
clay of
20'.
V,
Circuit
, :.-ezc-,..q,.
ty, MissNlia
Xi-1.6*eNg
By

-42%-171.4ak-

FILED
APR 18 2019

•

upreme Court of Mississipie
Court of Appeals of the State of Mississippi
Office of the Clerk
(Street Address)
450 High Street
Jackson, Mississippi 39201-1082

D. Jeremy Whitmire
Post Office Box 249
Jackson, Mississippi 39205-0249
Telephone: (601) 359-3694
Facsimile: (601) 359-2407

e-mail:sctclerk@courts.ms.gov
August 25, 2020

This is to advise you that the Mississippi Court of Appeals rendered the following
decision on the 25th day of August, 2020.
Court of Appeals Case # 2019-CP-00766-COA
Trial Court Case # 2019-0031 CICI
C.D. Pickle Jr. a/k/a Clanton D. Pickle Jr. a/k/a C.D. Pickle v. State of Mississippi
Current Location:
MDOC #31459
P.O.' Box 1057
Parchman, MS 38738
The motion for rehearing is denied.

* NOTICE TO CHANCERY/CIRCUIT/COUNTY COURT CLERKS *
If an original of any exhibit other than photos was sent to the Supreme Court Clerk and should
now be returned to you, please advise this office in writing immediately.

Please note: Pursuant to MRAP 45(c), amended effective July, 1, 2010, copies of opinions will not
be mailed. Any opinion rendered may be found by visiting the Court's website at:
https://courts.ms.gov, and selecting the appropriate date the opinion was rendered under the
category "Decisions."

Nov 17

Electronic Document

13:31:18

2019-CT-00766-C4I)

Pages: 1

Serial: 234622
IN THE SUPREME COURT OF MISSISSIPPI
No. 2019-CT-00766-SCT
C.D. PICKLE JR. A/K/A CLANTON D. PICKLE JR.
A/K/A C.D. PICKLE

Appellant/Petitioner

v.
Appellee/Respondent

STATE OFMISSISSI:PPI

ORDER

Before the Court is the petition for writ of certiorari filed pro se by C.D. Pickle, Jr.
Having duly considered the petition, the Court finds that it should be denied.
IT IS THEREFORE ORDERED that Pickle's petition for writ of certiorari is
denied.
SO ORDERED.

TO DENY: ALL JUSTICES

DIGITAL SIGNATURE
Order#: 234622
Sig Serial: 100002804
Org: SC
Date: 11/17/2020

Robert P. Chamberlin, Justice

